Washington, D.C. 20530

October 7, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Richard Brian Williams v. United States of America,
S.Ct. No. 20-5184

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on July 22, 2020. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on October 13, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 12, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5184
WILLIAMS, RICHARD BRIAN
USA

ABBY W. BRUMLEY
ASSISTANT FEDERAL PUBLIC DEFENDER
200 SOUTH LAMAR STREET
SUITE 200-N
JACKSON, MS 39201
601-948-4284
ABBY_BRUMLEY@FD.ORG
601-948-5510(Fax)

